           U.S. Small Business Administration
           Office of Inspector General                Memorandum
    To:    Eric R. Zarnikow                                               Date:   December 10, 2009
           Associate Administrator, Office of Capital Access
           /s/ Original Signed
  From:    Debra S. Ritt
           Assistant Inspector General for Auditing

Subject:   Notice of Finding and Recommendation on Recovery Act Loans Disbursed Without
           the Required Borrower Immigration Certifications
           ROM-10-05

           The OIG is conducting an audit of 7(a) loans disbursed pursuant to the American
           Recovery and Reinvestment Act of 2009 (Recovery Act) to determine if the loans
           made under the Act were originated and closed in compliance with SBA's policies
           and procedures and to identify any evidence of suspicious activity. This is the
           second in a series of finding notices related to our ongoing audit and is intended to
           provide the Agency with early notification of findings and recommendations related
           to material deficiencies in Recovery Act loans and with the loan approval process.
           This Notice of Finding and Recommendation (NFR) identifies lender
           disbursements of Recovery Act loans that were made without obtaining the
           required borrower immigration certifications. We made four recommendations to
           the Associate Administrator for Capital Access to: (1) remind lenders of the SBA
           requirement to obtain borrower certification of compliance with immigration laws
           prior to loan disbursement; (2) require lenders to obtain the required borrower
           certifications for the 14 loans listed in this report; (3) flag the 14 loans listed in this
           report to ensure this deficiency is properly addressed at the time of guaranty purchase
           should these loans default; and (4) require lenders to submit borrower certifications of
           compliance with immigration laws at guaranty purchase, and cancel or reduce the
           SBA loan guaranties where lenders cannot furnish the required certification.

           On November 19, 2009, we provided a draft of this NFR to SBA for comment. On
           December 3, 2009, SBA submitted its formal comments, which are contained in their
           entirety in Appendix II. Management agreed with the recommendations made in this
           report and provided dates for final actions. SBA agreed that issuing a notice to
           lenders was an appropriate course of action and stated that it has drafted an
           information notice. Additionally, SBA stated that within 30 days, it will contact the
           lenders of the 14 loans to ensure they are aware of the requirement for borrower
           certifications, and flag the 14 loans in the Guaranty Purchase System. SBA also plans
to update its 10-tab system to include a section specific to Recovery Act
documentation and to reduce the SBA guaranty percentage for loans that were
ineligible or not in compliance.

We appreciate the courtesies and cooperation of the Office of Capital Access. If
you have any questions concerning this NFR, please call me at 202-205-[FOIA ex.
2], or Debra Mayer, Director, Recovery Oversight Group, at 202-205-[FOIA ex.
2].

Attachment




                                                                              2
                        U.S. Small Business Administration

                              Office of Inspector General

                        Notice of Finding and Recommendation


Audit Location/Division        Office of Capital Access

Date                           December 10, 2009

Description of Issue           Lenders are not complying with Recovery Act
                               requirements regarding immigration laws.

BACKGROUND:

The purpose of this Notice of Finding and Recommendation (NFR) is to advise you of an
issue that was identified during our ongoing audit of 7(a) loans disbursed pursuant to the
American Recovery and Reinvestment Act of 2009 (Recovery Act). As part of the audit,
we reviewed 30 lender-approved 7(a) Recovery Act loans that received an increased SBA
guaranty to verify lender compliance with SBA rules and regulations.

The Recovery Act prohibited SBA from providing increased loan guaranties to entities
who engage in a pattern or practice of hiring or recruiting unauthorized aliens for
employment in the United States. To ensure compliance with this Recovery Act
requirement, SBA modified its 7(a) loan authorization to require lenders to obtain
borrower certifications of their compliance prior to loan disbursement. For its pilot loan
programs, SBA required lenders to add this requirement to their loan authorizations.

CONDITION:

We found that 14, or 47 percent, of the 30 lender-approved loans reviewed did not
contain the SBA-required borrower certifications. See Appendix I for a listing of the
loans.

CRITERIA:

Section 502(c)(2) of the Recovery Act states that no loan guaranty may be made for a
loan to any entity found, based on a determination by the Secretary of Homeland Security
or the Attorney General, to have engaged in a pattern or practice of hiring, recruiting or
referring for a fee, an unauthorized alien for employment in the United States.




                                                                                             3
SBA Policy Notice 5000-1098, Implementation of Section 502 of the Recovery Act - Up
to a 90 Percent Guaranty on 7(a) Loans, states that prior to disbursement, the lender
must require the borrower and any Operating Company to certify as follows:

               Immigration Laws — Neither the Borrower nor Operating
               Company has been determined by the Secretary of Homeland
               Security or the Attorney General to have engaged in a pattern or
               practice of hiring an alien, recruiting an alien or referring an
               alien for a fee for employment in the United States, knowing
               that the person is an unauthorized alien.

CAUSE:

Lenders did not obtain the required certifications from borrowers and Operating
Companies. Additionally, one lender that issued pilot program loans under Section 502
of the Recovery Act did not properly modify its loan authorization to require
certifications from the borrowers.

EFFECT:

Without the required borrower certifications, SBA does not have reasonable assurance
that the 14 disbursed loans were in compliance with the Recovery Act. Based on a
statistical projection of the 14 loans that are valued at $6.8 million, we estimate that at
least $215 million in SBA Recovery Act loans were approved between February 17, 2009
and May 31, 2009, without obtaining the required borrower certifications of compliance
with immigration laws.

RECOMMENDATIONS:

We recommend that the Associate Administrator for Capital Access:

1. Remind lenders of the SBA requirement to obtain borrower certification of compliance
   with immigration laws prior to loan disbursement.

2. Require lenders to obtain the required borrower certifications for the 14 loans listed in
   Appendix I.

3. Flag the 14 loans listed in Appendix I in the Guaranty Purchase Tracking System to
   ensure this deficiency is properly addressed at the time of guaranty purchase should
   the loans default.

4. Upon request for guaranty purchase of SBA Recovery Act loans that received
   increased SBA guaranties, require lenders to submit borrower certifications of
   compliance with immigration laws, and cancel or reduce the SBA guaranty for any
   loan made for which the lender cannot furnish the required certification.




                                                                                           4
APPENDIX I. LOANS WITHOUT BORROWER IMMIGRATION
CERTIFICATIONS

Loan Number                    Loan Name         Loan Amount
 [FOIA ex. 2]   [FOIA ex. 4]                           $420,000
 [FOIA ex. 2]   [FOIA ex. 4]                         $1,198,000
 [FOIA ex. 2]   [FOIA ex. 4]                           $320,000
 [FOIA ex. 2]   [FOIA ex. 4]                           $770,400
 [FOIA ex. 2]   [FOIA ex. 4]                            $50,000
 [FOIA ex. 2]   [FOIA ex. 4]                           $100,000
 [FOIA ex. 2]   [FOIA ex. 4]                         $1,165,000
 [FOIA ex. 2]   [FOIA ex. 4]                            $75,000
 [FOIA ex. 2]   [FOIA ex. 4]                           $445,000
 [FOIA ex. 2]   [FOIA ex. 4]                            $18,000
 [FOIA ex. 2]   [FOIA ex. 4]                            $15,000
 [FOIA ex. 2]   [FOIA ex. 4]                           $265,000
 [FOIA ex. 2]   [FOIA ex. 4]                           $264,200
 [FOIA ex. 2]   [FOIA ex. 4]                         $1,660,000
    Total                                            $6,765,600




                                                             5
 APPENDIX II. AGENCY COMMENTS




                        U.S. SMALL BUSINESS ADMINISTRATION
                                 WASHINGTON, D.C. 20416




  DATE:       December 3, 2009
     TO:      Debra S. Ritt
              Assistant Inspector General for Auditing
              /s/ Original Signed
  FROM:       Eric R. Zarnikow
              Associate Administrator for Capital Access

SUBJECT:      Draft Notice of Finding and Recommendation on Recovery Act Loans
              Disbursed Without the Required Borrower Immigration Certifications
              Project No. 9512B


 Thank you for the opportunity to comment on the Draft Notice of Finding and
 Recommendation on Recovery Act Loans Disbursed without the Required Borrower
 Immigration Certifications. We appreciate that the Office of the Inspector General has
 given us a quick response and feedback on the Recovery Act loan findings.

 Responses to OIG Recommendations:

 1. Remind lenders of the SBA requirement to obtain borrower certification of
    compliance with immigration laws prior to loan disbursement.

        OCA agrees that this is an appropriate course of action and has drafted an
        information notice reminding lenders to update their files to include additional
        Recovery Act documentation requirements, including Borrower certification of
        hiring practices for 7(a) loans with the increased guaranty, reimbursement of
        borrower fees for 7(a) and 504 loan guarantees, and allowable uses of Recovery
        Act funds. This notice is currently in Agency review and is expected to be issued
        by December 15, 2009.

 2. Require lenders to obtain the required borrower certification for the 14 loans
    listed in Appendix I.

        Within 30 days, SBA will contact the lenders of the 14 loans to ensure that they
        are aware of the requirement for borrower certifications.




                                                                                            6
3. Flag the 14 loans listed in Appendix I in the Guaranty Purchase Tracking
   System to ensure this deficiency is properly addressed at the time of guaranty
   purchase should these loans default.

       Within 30 days OCA will flag these loans in GPTS.

4. Upon request for Guaranty purchase of SBA Recovery Act loans that received
   increased SBA guaranties, require lenders to submit borrower certifications of
   compliance with immigration laws, and cancel or reduce the SBA guaranty for
   any loan made for which the lender cannot furnish the required certification.

       Lender files are expected to document eligibility, servicing and liquidation
       requirements according to SBA policies and procedures for Recovery Act loans.
       Within 30 days, SBA will update the 10 tab system to include a section specific to
       Recovery Act documentation. SBA will reduce the SBA guaranty percentage for
       loans that were not eligible for the higher Recovery Act guarantee percentage
       where lenders cannot demonstrate through certifications or by other means that
       the loan complied with this section of the law.




                                                                                            7
